No. 19-294
IN THE

Supreme Court of the United States
————
USAMA JAMIL HAMAMA, et al.,
Petitioners,

v.

REBECCA ADDUCCI, et al.,
Respondents.
————
On Petition For A Writ Of Certiorari To The
United States Court Of Appeals
For The Sixth Circuit
————
REPLY BRIEF FOR PETITIONERS
————
MIRIAM J. AUKERMAN
AMERICAN CIVIL LIBERTIES
UNION FUND OF MICHIGAN
1514 Wealthy Street SE
Grand Rapids, MI 49506
KIMBERLY L. SCOTT
WENDOLYN W. RICHARDS
MILLER, CANFIELD, PADDOCK
& STONE, PLC
101 N. Main Street, 7th Floor
Ann Arbor, MI 48104
DAVID JOHNSON
573 Hawksnest Drive
South Haven, MI 49090

MARGO SCHLANGER
Counsel of Record
625 South State Street
Ann Arbor, MI 48109
(734) 615-2618
margo.schlanger@gmail.com
ANAND BALAKRISHNAN
LEE GELERNT
JUDY RABINOVITZ
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
DAVID D. COLE
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street NW
Washington, DC 20005

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

REPLY BRIEF FOR PETITIONERS
Respondents agree that this case asks
whether a provision of the Immigration and
Nationality Act (INA) is unconstitutional under
the Suspension Clause as applied to Petitioners.
Resp. Brief in Opp. (BIO), at I. The same question
is presented in Dep’t of Homeland Sec. v.
Thuraissigiam, No. 19-161 (Oct. 18, 2019),
scheduled for argument March 2, 2020. The two
cases concern different INA provisions—8 U.S.C.
§ 1252(g) and 8 U.S.C. § 1252(e)(2), respectively.
But both cases turn on two basic legal questions:
(1) the extent to which the Suspension Clause
applies to removal decisions, and (2) whether the
statutes in question provide adequate substitutes
for habeas. As such, the Court’s resolution of
Thuraissigiam is likely to affect the proper
disposition of this case, and this petition should
be held pending the disposition of Thuraissigiam,
and, if appropriate, the judgment vacated and
remanded for further consideration by the court
of appeals.
Respondents do not contest the importance of
the issue, and instead simply argue that the Sixth
Circuit decision was correct—making arguments
identical to those they have advanced in
Thuraissigiam. Compare BIO 12-15 (arguing that
the Suspension Clause is not implicated because
Petitioners are not seeking relief from detention),
Thuraissigiam, Pet. Br. 27-35 (arguing that the
Suspension Clause is not implicated because
Thuraissigiam is not seeking relief from
detention). And the government acknowledges
that “the methodology that this Court adopts in
1

Thuraissigiam for determining whether the
Suspension Clause protects certain types of
habeas relief” could affect the issue’s resolution in
this case. BIO 17. The question should be decided
on the basis of the full briefing the Court will
have in Thuraissigiam, and not in connection
with the threshold issue of whether to grant a
petition for certiorari. That Thuraissigiam will
address the Suspension Clause issue in an
expedited removal context, rather than the
ordinary removal context here, does not mean
that Thuraissigiam will not affect this case,
especially where the government has made
identical arguments in both cases. The
government does not argue otherwise.
Instead, Respondents argue that the Sixth
Circuit’s conclusion also rests on an independent
ground—namely, that the petition-for-review
process is an “adequate alternative to an action
in habeas” Pet. App. 10a—and that ground, they
assert, will not be affected by resolution of
Thuraissigiam.
BIO
17
(arguing
that
Thuraissigiam will “have no clear bearing on that
question”). But the issue whether the statutory
review provided in the INA is an adequate
substitute for the habeas required by the
Suspension Clause is also squarely presented in
Thuraissigiam.
The
government
in
Thuraissigiam expressly argues that the
statutory provision at issue there provides an
adequate
alternative
to
habeas.
See
Thuraissigiam, Pet. Br. 40-48 (arguing that the
expedited removal statute is an “adequate and
effective” alternative to habeas review). Thus,
Thuraissigiam is likely to affect resolution of this
2

issue as well.
Moreover, whether a statutory review scheme
is an adequate substitute for the scope of review
required by the Suspension Clause, the so-called
“independent ground” here, is necessarily a
function of the initial question presented in both
cases—what judicial review is required by the
Suspension Clause. Whether a substitute is
adequate will depend, in the first instance, on the
scope of review the Suspension Clause requires.
Thus, the second issue presented in both cases—
the adequacy of statutory review—cannot be
disaggregated from the first issue presented in
both cases—what review is constitutionally
required.
As a result, the Court’s resolution of
Thuraissigiam is likely, at a minimum, to shed
important light on both basic issues presented in
this case: what review is required by the
Suspension Clause, and whether the statute is an
“adequate
alternative.”
Consequently,
the
resolution of Thuraissigiam is likely to affect not
just the Sixth Circuit’s primary holding in this
case, but its (cursory) alternative holding as well.
The full impact of Thuraissigiam will not be
clear, of course, until it is decided. But given the
extensive overlap in legal issues presented by the
two cases, the Court should hold this petition
pending decision in Thuraissigiam, followed by a
grant/vacate/remand order if appropriate.

3

Respectfully submitted,
Miriam J. Aukerman
AMERICAN CIVIL
LIBERTIES UNION FUND
OF MICHIGAN
1514 Wealthy Street SE
Grand Rapids, MI 49506

Margo Schlanger
Counsel of Record
625 South State Street
Ann Arbor, MI 48109
(734) 615-2618
margo.schlanger@gmail.com

Kimberly L. Scott
Wendolyn W. Richards
MILLER, CANFIELD,
PADDOCK & STONE, PLC
101 N. Main Street,
7th Floor
Ann Arbor, MI 48104

Anand Balakrishnan
Lee Gelernt
Judy Rabinovitz
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004

David Johnson
573 Hawksnest Drive
South Haven, MI 49090

David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street NW
Washington, DC 20005

Date: December 17, 2019

4

